HHS/OIG Audit Report:"Review of Outpatient Pharmacy Services Provided By The Beth Israel Deaconess Medical Center for Fiscal Year Ending September 30, 1998,"(A-01-00-00549)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Pharmacy Services Provided By The Beth Israel Deaconess Medical Center for Fiscal Year Ending
September 30, 1998," (A-01-00-00549)
March 9, 2001
Complete
Text of Report is available in PDF format (1.48 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether outpatient pharmacy services at Beth Israel Deaconess Medical Center
(the Hospital) were billed for and reimbursed in accordance with Medicare regulations.  Based on a statistical sample,
we estimated that the Hospital had overstated its FY 1998 Medicare outpatient pharmacy charges by at least $221,905.  We
determined that the Hospital billed Medicare for medications not properly supported by medical records and for medications
not reimbursable by Medicare.  We noted that the Hospital did not establish or follow existing procedures for the
proper billing and record keeping of outpatient pharmacy services.